TN

C@OCKLE

2311 Douglas Street ; . E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B um efs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

No. 19-797

CITY OF ST. LOUIS, MISSOURI,
and DOC’S TOWING, INC.,
Petitioners,

Vv.

MARY MEIER,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF OF
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 2822 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 9th day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Mebraska x L
A RENEE J. GOSS . Yow A ( dee breater ‘ Ghh
My Comm. Exp. September 6, 2028

Affiant 39494

    

Notary Public
